No.__________

In The
Supreme Court of the United States
__________
ANDREW W. SHALABY,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Respondents.
__________
On Petition for Writ Certiorari to the United States
Court of Appeals for the Seventh Circuit
__________
PETITION FOR WRIT OF CERTIORARI
Andrew W. Shalaby, pro per
Supreme Court Bar No. 262436
7525 Leviston Avenue
El Cerrito, CA 94530
Tel. 510-551-8500,
email: andrew@eastbaylaw.com

i
QUESTIONS PRESENTED FOR REVIEW
This petition involves the disbarment and denial
admission of an attorney to the bar of a Federal Court
in Chicago, Illinois for allegedly impugning the
integrity of a judge in violation of American Bar
Association [ABA] Model Rule of Professional Conduct
8.2(a), a provision which states:
A lawyer shall not make a statement that
the lawyer knows to be false or with
reckless disregard as to its truth or
falsity concerning the qualification or
integrity of a judge.
1. Can a Federal Court deny an attorney admission to
the bar of the court, as a punishment for the alleged
violation of ABA Model Rule of Professional Conduct
8.2(a), for expressing an opinion that a particular
judge was required to disqualify himself based on the
fact that before becoming a judge, he worked for the
law firm representing a party to a proceeding before
him, if the attorney erred as to the date of the judge’s
employment with the firm?
2. Does 28 U.S.C. § 455(b)(2) require recusal of a judge
who was a former member of a law firm and, who,
after leaving the firm, maintained a co-counsel
relationship with the firm at the same time that the
firm represented a party in the matter in controversy?
3. Should Richardson-Merrell Inc. v. Koller, 472 U.S.
424 (1985) be overturned so that an order revoking an

ii
attorney’s pro hac vice (“PHV”) admission may be
immediately appealable, instead of appealable as an
interlocutory order at the end of the case, in light of
the fact that the revocation causes immediate and
substantial injury to the attorney, his client, and the
public, as illustrated in the facts of this case?

iii
PARTIES TO THE PROCEEDING
1.

ANDREW W. SHALABY, Petitioner;

2.

United States District Court for the Northern
District of Illinois, by way its Executive
Committee
RELATED PROCEEDINGS

Bailey v. Bernzomatic1, No. 16-cv-7548, U.S.
District Court for the Northern District of Illinois (aka
Bailey v. Worthington Cylinder Corporation, App. 2a),
order entered February 1, 2019. This proceeding is
related because the District Court’s Executive
Committee’s order states that it is based on an order
revoking the PHV admission of the petitioner-attorney
issued in Bailey. (App. 4a, 6a.)

1

Bernzomatic is division of Worthington Cylinder Corporation, a
subsidiary of Worthington Industries. Worthington purchased
Bernzomatic from Newell Rubbermaid (aka Newell Operating
Company or Newell Brands) on July 1, 2011.

iv
TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
PETITION FOR A WRIT OF CERTIORARI . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTORY PROVISIONS INVOLVED . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . 18
1. Disbarment Based on Free Speech . . . . 19
2. Mandatory Recusal Under 28 U.S.C. § 455(a)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
3. Overturning Richardson-Merrell Inc. . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

v
APPENDICES
Appendix A: Opinion, Seventh Circuit Court of
Appeals, Affirming District Court Executive
Committee’s Order, dated 08/20/2019 . . . . . . . . . . 1a
Appendix B: District Court Executive Committee
Order Denying Attorney Andrew Shalaby’s Petition for
Admission to the General Bar of the United States
District Court for the Northern District of Illinois,
dated June 13, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 6a
Appendix C: District Court’s Order issued in Bailey v.
Bernzomatic, et al., 1:16-cv-07548, revoking Attorney
Andrew Shalaby’s pro hac vice admission, dated
February 1, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . 9a
Appendix D: Order, Seventh Circuit Court of Appeals,
denying Petitioner Andrew W. Shalaby’s petition for
rehearing en banc, dated September 3, 2019 . . . 87a

vi
TABLE OF AUTHORITIES
Cases
Bailey v. Bernzomatic, 16-cv-7548, U.S. Dist. Ct., N.
Dist. Ill. . . . . . . . . . . iii, 1, 4, 6-8, 11-13, 15-18, 21, 22
Bailey v. Worthington Cylinder Corp., 19-1240, 2019
WL 3763951 (7th Cir. June 18, 2019) . . . . . . . . . . . 7
Browning, Ektelon Div. v. Williams, 348 Ill. App. 3d
830 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Chaplinsky v. State of New Hampshire, 315 U.S. 568
(1942) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Englebrick v. Worthington Industries Inc., et al., 08-cv01296, U.S. Dist. Ct., Cent. Dist. CA . . . . . . . 13, 14
Imbler v. Pachtman, 424 U.S. 409. . . . . . . . . . . . . 17
In re Chapman, 328 F.3d 903, 904 (7th Cir. 2003) . 2
In re Nakhuda, 544 B.R. 886 (B.A.P. 9th Cir. 2016)
.......................................... 9
In re Palmisano, 70 F.3d 483 (7th Cir. 1995) . . . . . . 2
In re Rimsat, Ltd., 229 B.R. 914 (Bankr. N.D. Ind.
1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Marmont v. Bernzomatic, et al., 16-cv-00848, U.S. Dist.
Ct., Cent. Dist. CA . . . . . . . . . . . . . . . . . . . . . . . . . 14

vii
Peralta v. Bernzomatic, 17-cv-3195 (Dist. Ct. AZ)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii, 21, 22
Potashnick v. Port City Const. Co., 609 F.2d 1101, 1111
(5th Cir. 1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Richardson-Merrell Inc. v. Koller, 472 U.S. 424 (1985)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 7, 8, 21, 22
Steffes v. Stepan Co., 144 F.3d 1070 (7th Cir. 1998)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Terminiello v. City of Chicago, 337 U.S. 1 (1949)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Tran v. Worthington, No. 4777/2010, Kings County
Sup.Ct. NY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

viii
FEDERAL STATUTES AND RULES
11 U.S.C. section 329 . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. section 1254(1) . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. section 455(a) . . . . . . . . . . . . . . . . 3, 20, 21
28 U.S.C. section 455(b)(2). . . . . . . . . . . i, 3-5, 11, 21
Northern District of Illinois Local Rule 83.10 . . 2, 6
Supreme Court Rule 13.1. . . . . . . . . . . . . . . . . . . . . 2
Supreme Court Rule 8 . . . . . . . . . . . . . . . . . . . . . . 21
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . . . . . 3

OTHER AUTHORITIES
American Bar Association Model Rule of Professional
Conduct 8.2(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . ii, 6

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Andrew W. Shalaby respectfully
petitions for a writ of certiorari to review the order of
the United States Court of Appeals for the Seventh
Circuit in this case.
OPINIONS BELOW
The August 20, 2019 order of the United States
Court of Appeals for the Seventh Circuit, affirming the
United States District Court’s order of June 13, 2019
denying Attorney Andrew W. Shalaby admission to the
general bar of the Court as a sanction, is unpublished
and reported at 775 Fed.Appx. 249 and is reprinted in
the Appendix to this Petition (“App.”) at App. 1a-5a.
The June 13, 2019 order of the Executive
Committee of the United States District Court for the
Northern District of Illinois, denying Attorney Andrew
W. Shalaby’s application for admission to the general
bar of the Court, is reprinted at App. 6a-8a.
The February 1, 2019 order of the United States
District Court for the Northern District of Illinois,
issued in Bailey v. Bernzomatic et al., 16-cv-7548,
revoking the pro hac vice admission of Attorney
Andrew W. Shalaby, is reprinted at App. 9a-86a.
The September 3, 2019 order of the United
States Court of Appeals for the Seventh Circuit
denying Petitioner’s petition for en banc rehearing is
reprinted at App. 87a.

2
JURISDICTION
The United States Supreme Court has
jurisdiction over a final order from the United States
Court of Appeals pursuant to 28 U.S.C. § 1254(1). The
order of the United States Court of Appeals for the
Seventh Circuit was entered on August 20, 2019.
(App. 1a.) The order denying Petitioner’s petition for
en banc rehearing was issued September 3, 2019.
(App. 87a.) This petition is timely filed within 90 days
of the date of entry of the order as required by
Supreme Court Rule 13.1.
The Seventh Circuit Court of Appeals has
jurisdiction over orders imposing filing restrictions and
denying bar membership as judicial decisions, as
explained on its order at App. 4a. In re Chapman, 328
F.3d 903, 904 (7th Cir. 2003); In re Palmisano, 70 F.3d
483, 484-85 (7th Cir. 1995).
The United States District Court for the
Northern District of Illinois has jurisdiction with
regard to an applicant’s application for admission to
the general bar of the Court pursuant to Northern
District of Illinois Local Rule 83.10.

3
STATUTORY PROVISIONS INVOLVED
•

United States Constitution, amendment I:
Congress shall make no law respecting
an establishment of religion, or
prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the
press; or the right of the people peaceably
to assemble, and to petition the
Government for a redress of grievances.

•

28 U.S.C. section 455
(a) Any justice, judge, or magistrate
judge of the United States shall
disqualify himself in any proceeding in
which his impartiality might reasonably
be questioned.
(b) He shall also disqualify himself in the
following circumstances:
[...]
(2) Where in private practice he served as
lawyer in the matter in controversy, or a
lawyer with whom he previously
practiced law served during such
association as a lawyer concerning the
matter, or the judge or such lawyer has
been a material witness concerning it[;]

4
STATEMENT OF THE CASE
The Federal Court in Illinois permits an
attorney to appear pro hac vice, or in the alternative,
be admitted to the general bar of the Court and
represent parties without restriction. The appeal
underlying this petition is from the June 13, 2019
order of the U.S. District Court for the Northern
District of Illinois, issued by its Executive Committee,
denying Attorney Shalaby’s application for admission
to the general bar of the Court as a punishment
arising out of protected free speech. (App. 1a-5a.)
The Seventh Circuit Court of Appeals addressed
the question of whether a court may deny an attorney
admission as a punishment based on protected free
speech, that free speech being the assertion of a belief
that based on the employment history of a Magistrate
Judge (Hon. Iain D. Johnston), recusal was mandatory
under 28 U.S.C. § 455(b)(2). (App. 2a-3a.) Attorney
Shalaby erred as to the date of the termination of Mr.
Johnston’s employment from the law firm that
represented the entity “Bernzomatic” in an earlier
proceeding, and was harshly punished for that error by
denial of admission. (App. 2a-4a.) This was the
second harsh punishment, because four months earlier
Attorney Shalaby’s PHV admission was revoked on the
same grounds by Judge Philip G. Reinhard in Bailey v.
Bernzomatic, No. 16-cv-7548, U.S. District Court for
the Northern District of Illinois. (App. 85a.)
The First Amendment abridgement here is
particularly troubling because the error made by Mr.

5
Shalaby with regard to Magistrate Judge Johnston’s
date of termination of his employment with the firm in
question was not material. It was not material
because under the correct facts, Magistrate Judge
Johnston was likely still required to recuse himself as
a matter of law based on his continued co-counseling
relationship with the firm in question.
Judge
Reinhard revoked Mr. Shalaby’s PHV admission, at
least in part, because the court was not able to find
any authority addressing this fact pattern (App. 37a):
In its research, the court found no case in
which the language of Section 455(b)(2)
was construed to apply to a judge who
was a former member of a law firm and,
who, after withdrawing from that firm,
had appeared as co-counsel with a
member of that firm in an unrelated
matter at the same time that a different
member of that firm was serving as a
lawyer in the matter in controversy.
Therefore, the second question presented for review is
whether 28 U.S.C. § 455(b)(2) calls for the recusal of a
judge who was a former member of a law firm and,
who, after leaving the firm, maintained a co-counsel
relationship with the firm at the same time that it
represented a party in the matter in controversy.
Finally, the Executive Committee did not make
its own findings, but instead, adopted the findings on
Judge Reinhard’s order, even though that order was
not yet final, and is still not final because it cannot be

6
appealed until the conclusion of the Bailey case. The
Executive Committee discloses its adoption of findings
from Judge Reinhard’s order as follows (App. 6a):
The Committee found that Ms. [sic]
Shalaby had violated American Bar
Association Model Rule of Professional
Conduct Rule 8.2(a), which states: "A
lawyer shall not make a statement that
the lawyer knows to be false or with
reckless disregard as to its truth or
falsity concerning the qualifications or
integrity of a judge." The Committee
further found that Mr. Shalaby did not
meet the character and fitness
requirements to join the General Bar.
Local Rule 83.10(a). Those findings were
based on the order issued in Bailey v.
Benzomatic et al., 16 C 7548. R. 402 at
14-16.
Because the Executive Committee discloses that its
“findings were based on the order issued in Bailey v.
Benzomatic et al., 16 C 7548. R. 402 at 14-16,” it was
necessary that Judge Reinhard’s order revoking Mr.
Shalaby’s PHV admission in the Bailey case become
final before it could be relied-upon by the Executive
Committee. Browning, Ektelon Div. v. Williams, 348
Ill. App. 3d 830, 833, 807 N.E.2d 984, 986 (2004)
explains:
An appeal is a continuation of the
proceedings (134 Ill.2d R. 301) and, until

7
either the time to appeal has expired or,
where an appeal is being pursued, until
the court of review has rendered a
decision, the circuit court's judgment is
not a final adjudication.
However, the order was not final because in
Richardson-Merrell Inc. v. Koller, 472 U.S. 424 (1985)
the Supreme Court held that such an order is
interlocutory and could not be appealed until at the
conclusion of the case. In fact Mr. Bailey had appealed
the order revoking Mr. Shalaby’s PHV admission, but
that appeal was dismissed by the Seventh Circuit
Court of Appeals as unripe, as it explained in Bailey v.
Worthington Cylinder Corp., No. 19-1240, 2019 WL
3763951, at 1 (7th Cir. June 18, 2019):
IT IS ORDERED that this appeal is
dismissed. Plaintiff Kurtis Bailey filed a
notice of appeal from an order that
revoked attorney Andrew Shalaby's pro
hac vice status, precluding attorney
Shalaby (an attorney licensed in
California) from representing plaintiff
Bailey in this case.
But an order
granting or denying a motion to
disqualify counsel in a civil case is not
immediately appealable under the
collateral order doctrine. See
Richardson-Merrell, Inc. v. Koller, 472
U.S. 424 (1985). Plaintiff Kurtis Bailey
must wait until the case is at an end to
seek review of this order.

8
The Executive Committee relied on an order which
could very well be reversed at the conclusion of the
Bailey case, and this has caused a significant chain
reaction of harms. Therefore, the third question
presented for review is whether, in light of the harms
observed in this case, Richardson-Merrell Inc. should
be overturned.
This petition does not extend to the question of
whether the petitioner failed to disclose an earlier
order issued in another case imposing sanctions
against him, an order which was reversed on appeal,
because that issue was decided in the petitioner’s
favor. The Seventh Circuit Court of Appeals recites
the facts related to that matter on its order (App. 2a):
Opposing counsel moved to revoke
Shalaby’s pro hac vice admission on the
basis that Shalaby’s application failed to
disclose that he had been disciplined by
the United States Bankruptcy Court for
the Northern District of California.2 See

2

Bernzomatic’s motion to revoke Mr. Shalaby’s PHV admission
was document 310 in Bailey. On it, Bernzomatic misrepresented
to Magistrate Judge Johnston that a portion of the sanction issued
in Nakhuda had not been reversed on appeal. Judge Reinhard
corrected these facts. He first pointed out on his order to show
cause referenced at app. 10a (doc. 382 in Bailey) that an order
issued pursuant to 11 U.S.C. § 329 determining the reasonable
amount of compensation to an attorney in a bankruptcy is not a
“sanction” (Bailey doc. 382 p.8). Judge Reinhard continued to

9
In re Nakhuda, No. 14-41156-RLE, 2015
WL 1943450 (Bankr. N.D. Cal. 2015)
aff’d in part, 544 B.R. 886 (B.A.P. 9th
Cir. 2016), aff’d, 703 F. App'x 621 (9th
Cir. 2017).3
The Seventh Circuit Court of Appeals also made
a mistake of fact by stating that Mr. Shalaby made
false statements in his bar applications (App. 4a):
Shalaby’s argument that his discipline
violates his free-speech rights fares no
better. The First Amendment did not
give him a constitutional right to make
false statements in his bar applications.4

correct Bernzomatic’s misrepresentations on his order at app. 13a,
by pointing out that the sanction imposed on Mr. Shalaby in
Nakhuda, directing him to complete 24 hours of continuing
education, was also “implicitly reversed.” (App. 13a.)
3

Nakhuda was a case in which Mr. Shalaby was sanctioned, but
the sanctions were reversed on appeal in a published decision,
leaving only a provision suspending his ECF privileges until he
completed training.
4

Mr. Shalaby filed two applications for admission to the general
bar, as disclosed by the Executive Committee on p. 6a-7a. The
first application was denied on March 11, 2019 (App. 6a.) The
second application was submitted April 1, 2019, inadvertently
overlooked by the Court, then placed back on calendar for the
Executive Committee’s June 6, 2019 session (App. 7a). It was
denied on June 13, 2019 (App. 8a). The June 13, 2019 order was
appealed to the Seventh Circuit Court of Appeals. (App. 1a.)

10
The Executive Committee’s order does not allege that
Mr. Shalaby made false statements in his bar
applications. (App. 6a-8a.) Moreover, to the extent
that the Bernzomatic defendants raised the issue with
respect to Mr. Shalaby’s PHV application on their
motion to revoke Mr. Shalaby’s PHV admission,
Magistrate Judge Johnston denied that motion as well
(App. 76a.):
But, again, the matters before the court
are Attorney Shalaby’s actions occurring
after the order [333] on defendants'
motion to revoke his PHV admission.
The motion filed by defendants has been
decided. That decision was not to revoke
his PHV admission.
On Magistrate Judge Johnston’s order denying
Bernzomatic’s motion to revoke Mr. Shalaby’s PHV
admission, the Court explained that the revocation of
an attorney’s PHV status is perhaps one of the
harshest sanctions a court could fashion, citing to In re
Rimsat, Ltd., 229 B.R. 914, 922 (Bankr. N.D. Ind.
1998), aff'd, 230 B.R. 362 (N.D. Ind. 1999), aff'd, 212
F.3d 1039 (7th Cir. 2000):
Revocation of an attorney's pro hac vice
status is a harsh sanction, perhaps one of
the harshest the court could fashion.
An order punishing an attorney in relation to free
speech strongly violates the First Amendment, yet
Judge Reinhard revoked Mr. Shalaby’s PHV admission

11
because of Mr. Shalaby’s error as to the date of Mr.
Johnston’s termination of employment from the
subject law firm, a communication which occurred
after Magistrate Judge entered his order denying
Bernzomatic’s motion to revoke Mr. Shalaby’s PHV
(App. 76a):
[t]he matters before the court are
Attorney Shalaby's actions occurring
after the order [333] on defendants'
motion to revoke his PHV admission.
The Seventh Circuit Court of Appeals makes clear that
Mr. Shalaby was punished for making the error as to
Mr. Johnston’s date of termination of his employment
on its order (App. 2a-3a):
The district judge issued a show-cause
order demanding that Shalaby explain
why his admission should not be revoked
on the basis of his misrepresentations
and because of false statements he had
made about the magistrate judge
presiding over the case. (Shalaby
repeatedly stated that the magistrate
judge had a conflict and should have
recused himself under 28 U.S.C. §
455(b)(2), even though the magistrate
judge explained that Shalaby was
working from incorrect information about
the dates of his employment with a
defense law firm in the Bailey case.)

12
The Seventh Circuit Court of Appeals also
acknowledged that the level of detail of Judge
Reinhard’s order revoking Mr. Shalaby’s admission
was “unusual” (App. 3a):
The district judge explained in an
unusually detailed order why he found
Shalaby's defense of his behavior
unpersuasive and revoked Shalaby's pro
hac vice admission.
This unusual level of detail was necessary because Mr.
Shalaby’s argument for disqualification was not just
based on Magistrate Judge Johnston’s appearance of
the inability to be impartial due to his employment
history with the law firm that previously represented
Berzomatic, or his continued co-counsel relationship
after he left the firm. Mr. Shalaby argued that when
those facts are combined with the fact that Magistrate
Judge Johnston took the seemingly unprecedented
step of hiring his own expert on the Bailey products
liability action, ordering the parties to pay that expert
$15,909.01, then firing the expert without explanation,
and without that expert having ever produced any
work product whatsoever, leaving Mr. Bailey out of
pocket thousands of dollars, the appearance of
impropriety is so serious that disqualification should
be required. Judge Reinhard discloses this matter on
his order (App. 56a):
Magistrate Judge Johnston did not refer
to his order directing payment as a
‘sanction’ but in effect the order operated

13
as a sanction, because the Court imposed
this involuntary payment of $7,954.05 for
an expert the Court hired, then fired,
without benefit to any party. Plaintiff
and Mr. Shalaby are sharing costs in this
action, and thus far Mr. Shalaby has paid
far more than 50% of all costs associated
with this case. This includes the
$15,909.01 bill of Mr. Khan.”
To better understand the context of these
communications, a brief background into the
Bailey matter is presented. The Bailey action arises in
relation to a defective handheld torch commonly sold
at most home improvement and general retail stores.5
The Federal Pacer registry contains a large number of
Bernzomatic torch defect cases spanning most of the
years since the Pacer system was implemented in
1988. Yet, to the best of Petitioner’s knowledge, no
case has ever gone to trial, with exception of one case
that terminated prematurely as a sanction: Englebrick
v. Worthington Industries Inc., et al., No. 08-cv-01296,
U.S. District Court for the Central District of
California. In that case the Court stated its finding
regarding the defect of the Bernzomatic torch:
Indeed, Plaintiffs presented substantial

5

The torch consists of a fuel cylinder, and a torch attachment that
screws onto the top of the cylinder. The cylinders contain either
propane, propylene, or “MAPP” gas. Worthington is the sole
manufacturer of these products in the United States.

14
evidence at trial showing that there was,
in fact, a defect in the cylinder.”6
It was most unfortunate that the Englebrick case
terminated prematurely, because eight months earlier
the same product, a Bernzomatic gas cylinder,
exploded and killed one Mr. Tran in New York.7
As a most unfortunate consequence of the
failure of any of the many cases posted on the Pacer
system to advance to trial over the many years, many
people have been severely injured with horrific burn
injuries, and one Ms. Astrid Marmont, the mother of
three young children, was killed on September 15,
2013. Marmont v. Bernzomatic, et al., No. 16-cv00848, U.S. District Court for the Central District of
California. That case did not go to trial, but instead,
settled recently for millions of dollars, while the
defective Bernzomatic torch products continued and
still continue to injure users. Mr. Bailey is one of the
many injury victims, suffering his severe burn injuries
on May 20, 2014, eight months after the death of Ms.
Marmont. Then followed the severe burn injuries
suffered by Mr. Peralta in Peralta v. Bernzomatic, No.
17-cv-3195, U.S. District Court, Arizona, and several

6
7

This finding is on document 638 p.3:24-25 in Englebrick.

On February 26, 2008 Mr. Tran died after suffering severe burn
injuries caused by a defective Bernzomatic torch. Tran v.
Worthington, No. 4777/2010, Kings County Supreme Court, Civil
Div., NY. The Tran Court records disclose that the case settled
for $3,750,000.

15
others (fn. 8).
Mr. Shalaby was so concerned that others would
suffer severe injury or death by way of the defective
Bernzomatic products that he filed a very early motion
for partial summary judgment to establish the defect
of the Bernzomatic torch products. He filed the motion
on October 30, 2017 (document 193 in the Bailey case
docket), long before his PHV was revoked. However,
Magistrate Judge Johnston suggested that the
defendants file a “Rule 56(d) declaration,” then upon
its filing, continued the motion for partial summary
judgment, ultimately staying it indefinitely once
Bernzomatic filed its motion to revoke Mr. Shalaby’s
PHV admission on March 26, 2018 (filed as document
310 in Bailey). The stay has now spanned well over a
staggering 19 months to date, and during these
months there were at least two additional severe
injuries caused by the Bernzomatic torches.8
Most unfortunate for the Bernzomatic torch

8

The injury victims contacted Mr. Shalaby and reported the
injuries. Ironically, one of these severe injuries, which included
extensive property damage, was in the same venue as Bailey. On
May 11, 2018 one Mr. Cepuran suffered severe injury when his
Bernzomatic torch exploded. The documents in relation to his
matter are in the Bailey docket at doc. 477. A second Bernzomatic
defective torch injury was also reported to Mr. Shalaby on August
1, 2019. Ironically, this injury occurred in Arizona, where
Worthington filed yet another motion to revoke Mr. Shalaby’s
PHV admission in Peralta v. Bernzomatic, No. 17-cv-3195, U.S.
District Court, Arizona, causing that case to come to a standstill
since March 29, 2019.

16
injury victims that were injured during the delays and
stays caused by the Court’s proceedings to revoke Mr.
Shalaby’s PHV admission, the Bailey Court made clear
that it was aware that other injuries were very likely
to occur while the PHV revocation proceedings were
pending and the action was stayed (App. 73a-74a):
Mr. Shalaby finally brings to the Court’s
attention that the death of Mr. Tran,
death of Ms. Marmont, burn injuries of
Mr. Shadbolt in Canada, and many other
severe burn injuries and possible deaths
occurring after the year 2007, were
almost certain to be avoided, had the
Court in San Diego focused its attention
on the details of the product defects
before it, instead of taking seriously and
taking as true the ‘false facts’ and
contrived evidence of the defendants and
their counsels targeting Mr. Shalaby
personally, while these are now the same
counsels in this action doing the same
thing once again because of the reward of
success a decade ago in the earlier action.
The motivation of the defense counsels in
moving to remove Mr. Shalaby as counsel
is therefore the most important
consideration.
Judge Reinhard was therefore aware that Mr. Shalaby
was particularly troubled by Magistrate Judge
Johnston’s history of employment with the law firm
that represented Bernzomatic years earlier, and Judge

17
Johnston’s concomitant retention of his own expert at
the expense of Mr. Bailey. The communications for
which Mr. Shalaby’s PHV admission was revoked, and
for which his admission to the general bar of the Court
was denied, were spoken in this context, and are
therefore privileged First Amendment activities which
are protected by Illinois’ absolute litigation privilege:
In essence, the absolute litigation
privilege affords immunity to attorneys
(and other participants in the judicial
process) from tort liability arising out of
statements made in connection with
litigation. See Imbler v. Pachtman, 424
U.S. 409, 439, 96 S.Ct. 984, 47 L.Ed.2d
128 (1976) (White, J., concurring)
(describing common-law privilege). The
privilege as it has developed in Illinois is
quite broad. Steffes v. Stepan Co., 144
F.3d 1070, 1074 (7th Cir. 1998)
The Revocation of Mr. Shalaby’s PHV admission
based on his free speech activities, followed by the
Executive Committee’s denial of his application for
admission to the Court’s general bar on the same
grounds, have therefore caused harm not only to Mr.
Shalaby, Mr. Bailey, and Mr. Peralta, but to the public
as well, because the motion for partial summary
judgment Mr. Shalaby filed in the Bailey matter was
put on hold since October 17, 2019, the Bailey and
Peralta cases remain frozen at this time, and during
these many months other persons have suffered severe
burn injuries as the result of the defective Bernzomatic

18
torch products.
REASONS FOR GRANTING THE PETITION
The denial of Mr. Shalaby’s application for
admission to the general bar of the Court for stating
an error of fact is a serious abridgement of First
Amendment rights. In this instance the Executive
Committee’s denial of admission of the petitioner to
the Court’s general bar made it impossible for him to
timely adjudicate the products liability case so as to
prevent injuries to others, even though the Bailey
Court has in its dockets the completed expert report
identifying the defects of the products by way of
Bernzomatic’s own evidence, which means the defects
are not even reasonably capable of dispute. The
report, which was submitted many months ago to the
Consumer Product Safety Commission, simply sits as
an idle document (number 450-1) in the Bailey docket,
and idle document (number 164-2) in the
Peralta docket.9 Yet the petitioner is helpless to
adjudicate the defects because he has been denied
admission to the general bar by the Executive
Committee based on the non-appealable interlocutory
order revoking his PHV admission over a mere
mistake as to the date of the termination of
employment of Mr. Johnston from the subject firm,
even though the communication is free speech

9

The detailed Bernzomatic product defect report is posted at:
https://drive.google.com/file/d/1_fClA3pQiYwXQrMnMCO_MOw
b_zHPAG26/view?usp=sharing

19
protected by the First Amendment and by Illinois’
absolute litigation privilege.
1. Disbarment Based on Free Speech
Attorneys are the Court’s liaison to the people,
best suited to identify improper judicial acts when they
occur. The Supreme Court articulates well the
importance of such free speech in Terminiello v. City of
Chicago, 337 U.S. 1, 4, 69 S. Ct. 894, 896, 93 L. Ed.
1131 (1949):
Accordingly a function of free speech
under our system of government is to
invite dispute. It may indeed best serve
its high purpose when it induces a
condition of unrest, creates
dissatisfaction with conditions as they
are, or even stirs people to anger. Speech
is often provocative and challenging. It
may strike at prejudices and
preconceptions and have profound
unsettling effects as it presses for
acceptance of an idea. That is why
freedom of speech, though not absolute,
Chaplinsky v. New Hampshire, supra,
315 U.S. at pages 571 - 572, 62 S.Ct. at
page 769, 86 L.Ed. 1031, is nevertheless
protected against censorship or
punishment, unless shown likely to
produce a clear and present danger of a
serious substantive evil that rises far
above public inconvenience, annoyance,

20
or unrest.
The Supreme Court should therefore grant this
petition to remedy the serious abridgement of First
Amendment rights caused by the Executive
Committee’s punishment of the petitioner over speech
which is protected by the First Amendment and by the
absolute litigation privilege which now exists in
Illinois and most or all of the other states.
2. Mandatory Recusal Under 28 U.S.C. § 455(a)
This appears to be the first case raising the
question of whether a judge who worked for the law
firm that is now representing one of the parties to a
proceeding before him must recuse himself, even if he
left the firm before it substituted into the action in
question, if when in private practice he maintained a
co-counsel relationship with the firm in question. The
law is clearly explained in Potashnick v. Port City
Const. Co., 609 F.2d 1101, 1111 (5th Cir. 1980):
Because 28 U.S.C. § 455(a) focuses on the
appearance of impartiality, as opposed to
the existence in fact of any bias or
prejudice, a judge faced with a potential
ground for disqualification ought to
consider how his participation in a given
case looks to the average person on the
street. Use of the word "might" in the
statute was intended to indicate that
disqualification should follow if the
reasonable man, were he to know all the

21
circumstances, would harbor doubts
about the judge's impartiality.
However, while the law is clear, the Seventh Circuit
Court of Appeals did not address the issue on its order.
(App. 1a-5a.) This leaves the fact pattern undecided
and without any precedent to guide the courts in the
future. The Supreme Court should therefore grant
this petition so that it can issue a decision providing
guidance to the lower Courts on whether the cocounsel relationship of an attorney with a firm he used
to work with that represented a party to the case in
controversy should disqualify himself under 28 U.S.C.
§ 455(a) and (b)(2).
3. Overturning Richardson-Merrell Inc.
This case presents a strong fact pattern that
brings to light the harms caused by the holding in
Richardson-Merrell Inc. stating that an order revoking
an attorney’s PHV admission may not be appealed
until the conclusion of the case in which his admission
was revoked. One harm is that the attorney will be
denied admission to the bars of other courts, as was
done here. Another harm is that the attorney must
report the PHV disbarment to other courts, including
the United States Supreme Court under Supreme
Court Rule 8, and is therefore subjected to additional
punishment and disbarment from these other Courts.
Another harm is that the represented party’s case is
halted for months, as evidenced in the Bailey and
Peralta actions. Another harm is that the disbarment
can stop the timely progression of an action involving

22
products that cause injury to people, leading to actual
physical injuries to others, as witnessed here, where
during the stays of the Bailey and Peralta actions,
other persons suffered severe physical injuries by the
products, despite the fact that the petitioner-attorney
filed a very early motion for summary judgment to
adjudicate the defects of the products.
The Seventh Circuit Court of Appeals affirmed
the Executive Committee’s order denying Petitioner
admission to the general bar based on the order issued
in Bailey revoking the petitioner’s PHV admission,
even though that order was not capable of appellate
review until the end of the case, due to the Supreme
Court’s holding in Richardson-Merrell, Inc. The
Supreme Court should therefore grant this petition so
that it can overturn Richardson-Merrell Inc. and
prevent the appreciable harms observed in this matter.
CONCLUSION
For the foregoing reasons, the Court should
grant a writ of certiorari.
Respectfully submitted,
Andrew W. Shalaby
7525 Leviston Avenue
El Cerrito, CA 94530
Tel. 510-551-8500
andrew@eastbaylaw.com
Petitioner pro per

